Federal Information Security Management Act: Fiscal Year 2013 Evaluation (IG-14-004,
November 20, 2013)

The NASA Office of Inspector General (OIG) prepared a summary report in response to the
fiscal year (FY) 2013 reporting requirements for the Federal Information Security Management
Act (FISMA). In accordance with Office of Management and Budget requirements for this
year’s review, we examined NASA’s efforts in the following 11 areas:

      continuous monitoring management;
      configuration management;
      identity and access management;
      incident response and reporting;
      risk management;
      security training;
      plan of action and milestones;
      remote access management;
      contingency planning;
      contractor systems; and
      security capital planning.

We conducted our work using a sample of 8 Agency systems and 2 contractor systems. We also
reviewed NASA’s progress in implementing prior OIG recommendations.

Overall, we found that NASA has established a program to address each of the 11 areas we
examined. However, we also found that the Agency needs to enhance its efforts with regard to
configuration management, risk management, and contractor systems.

By implementing previous OIG recommendations and through related efforts, NASA is steadily
working to improve its overall information technology (IT) security posture. Nevertheless, IT
security remains a significant challenge for the Agency as it moves toward more effective IT
governance and risk management practices. The OIG will continue to assess NASA’s IT security
program through focused audits of discrete IT issues as well as through our annual FISMA
review.

The OMB will provide a consolidated FISMA report to Congress that will include information from
our report. However, as an “Intra-Agency Memorandum” our report is considered exempt from
release under the Freedom of Information Act (FOIA); it also contains NASA Information
Technology/Internal Systems Data considered Sensitive But Unclassified and therefore not routinely
released under FOIA. To submit a FOIA request, see the online guide.

OMB’s report is made available over the Internet (last year’s, Fiscal Year 2012 Report to Congress
on the Implementation of The Federal Information Security Management Act of 2002, was released
by OMB in March 2013).
